PROOF OF SERVICE

I hereby certify:

On thisZ © day of August, 2021, I, the undersigned person, served one copy
of the Petition in this cause by mailing the same to the following counsel for
Respondent:

Solicitor General of the U.S.
Room 5616

Department of Justice

950 Pennsylvania Ave NW
Washington, D. C. 20530-0001

in full compliance with the provisions of Rule 29.

A. EB
WALLACE L. TAYLOR,

ATTORNEY FOR PETITIONER

CERTIFICATE OF FILING
I, Wallace L. Taylor, attorney for Petitioner, hereby certify that I filed 11

copies of the Petition with the Clerk of the Supreme Court of the United States
by mailing same by regular mail to 1 First St. N.E., Washington, D.C. 20543,

on the Z© day of August, 2021.
Z Z oS
a
WALLACE L. TAYLOR

ATTORNEY FOR PETITIONER

~
